    DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                  Region IX
                                                                                  Office of Audit Services
                                                                                         th
                                                                                  90 - 7 Street, Suite 3-650
   JUL 302009                                                                     San Francisco, CA 94103




Report Number: A-09-08-01006

Mr. John Erickson
Director, Public Health Emergency Preparedness and
  Response Program
Washington State Department of Health
P.O. Box 47890
Olympia, Washington 98504-7890

Dear Mr. Erickson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of Washington State's Pandemic Influenza
Expenditures for the Period August 31,2005, Through June 30,2008." We will forward a copy
ofthis report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email
at Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-08-01006 in all
correspondence.

                                               Sincerely,

                                      A~->l~
                                              Lori A. Ahlstrand
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 - Mr. John Erickson


Direct Reply to HHS Action Official:

Mr. Alan A. Kotch
Director
Procurement and Grants Office
Centers for Disease Control and Prevention
2920 Brandywine Road (Mailstop E-14)
Atlanta, Georgia 30341
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





             REVIEW OF

      WASHINGTON STATE'S

      PANDEMIC INFLUENZA

EXPENDITURES FOR THE PERIOD

 AUGUST 31, 2005, THROUGH

       JUNE 30, 2008





                    Daniel R. Levinson

                     Inspector General


                        July 2009

                      A-09-08-01006

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND


The Centers for Disease Control and Prevention (CDC) provides funding to States, territories,
and certain large cities through cooperative agreements to improve preparedness and response
capabilities for bioterrorism and other public health emergencies. Beginning in 2005, Congress
appropriated funds specifically to upgrade capabilities to prepare for and respond to pandemic
influenza (pan flu). Through the existing cooperative agreements, CDC awarded $500 million in
pan flu funding in three phases:

   •	 In Phase I (August 31,2005, through August 30,2006), awardees were to identify unrnet
      needs and develop and exercise a pan flu preparedness plan and an antiviral drug
      distribution plan.

   •	 In Phase II (August 31, 2006, through August 30, 2007), awardees were to complete and
      submit to CDC a work plan and progress reports and develop a pan flu exercise schedule.

   •	 In Phase III (August 31, 2007, through August 9, 2008), awardees were to fill gaps
      identified in Phases I and II.

For each phase, CDC issued to awardees supplemental guidance setting forth the deadline for
submitting a budget application to CDC and the required activities. The supplemental guidance
also required awardees to submit interim and final financial status reports that summarized the
amount of funding awarded, spent, and unspent for each phase.

In Washington State, the Department of Health (the State agency) administers the pan flu award.
The State agency received a total of $10,170,420 in pan flu funding for the three phases.

OBJECTIVE

Our objective was to determine (l) the extent to which the State agency spent its pan flu funding
and (2) what types of costs it charged to the pan flu award and whether these costs complied with
Federal cost requirements.

SUMMARY OF RESULTS

As of June 30, 2008, the State agency had spent $7,371,252 of the $10,170,420 in pan flu
funding that it received from CDC. Unspent funds totaled $2,799,168, or 27.5 percent of the
cumulative awarded amount. The State agency attributed the unspent funds to delays in
receiving supplemental guidance and funding from CDC for Phases I and II. The State agency
also attributed the unspent funds to its decision to spend other funding that could not be carried
forward into future years, including CDC's funding for general public health emergency
preparedness and response and the State's funding for pan flu response activities.
The costs that the State agency charged to the pan flu award were in three major categories:
compensation costs; costs related to contracts with local health jurisdictions; and other costs,
including personal services contracts, travel expenses, equipment costs, and supplies. Of the
$7,371,252 that the State agency charged to the award, $6,620,074 complied with Federal cost
requirements. The remaining $751,178 was either unsupported or unallowable, consisting of:

   •	 $588,649 of compensation costs (salaries, fringe benefits, and related indirect costs) that
      were not supported by the required employee certifications;

   •	 $158,416 of contract costs, including a local health jurisdiction's unsupported allocation
      of direct costs to the pan flu award and another local health jurisdiction's incorrect
      charging of indirect costs to the pan flu award; and

   •	 $4,113 of unallowable other costs related to the allocation of indirect costs to an

      equipment purchase.


The State agency did not have procedures for its employees who worked on multiple public
health emergency preparedness and response activities to certify the work they performed or for
local health jurisdictions to identify actual costs incurred under the pan flu award. State agency
officials explained that these procedures were unnecessary because the State's emergency
preparedness and response activities, which included pan flu response activities, had an overall
common purpose.

RECOMMENDATIONS

We recommend that the State agency:

   •	 either refund $747,065 of unsupported compensation and contract costs or provide
      appropriate documentation to CDC for these costs,

   •	 refund $4,113 in unallowable other costs, and

   •	 develop and implement procedures for employees who work on multiple public health
      emergency preparedness and response activities to certify the actual work they perform
      and for local health jurisdictions to identify actual costs incurred under the pan flu award.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In comments on our draft report (included in their entirety as Appendix B), the State agency
commented that it partially concurred with the first recommendation and will work with CDC to
resolve $706,643 ofthe questioned contract and compensation costs. Regarding the remaining
$40,422 of contract costs, the State agency commented that it concurred with the finding but will
work with the local health jurisdiction to provide documentation to CDC to resolve the
questioned costs. The State agency concurred with the second and third recommendations.
Nothing in the State agency's comments caused us to revise our findings or recommendations.


                                                 11
                             TABLE OF CONTENTS



INTRODUCTION                                                                  1


    BACKGROUND                                                                1

        Funding for Pandemic Influenza Preparedness and Response Activities   l

        Washington State Department of Health                                 1


    OBJECTIVE, SCOPE, AND METHODOLOGY                                         2

         Objective                                                            2

         Scope                                                                2

         Methodology                                                          2


RESULTS OF REVIEW                                                             3


    UNSPENT FUNDS                                                             4


    COSTS CHARGED TO AWARD                                                    5

         Compensation Costs                                                   6

         Contract Costs                                                       6

         Other Costs                                                          7


    RECOMMENDATIONS                                                           7


    STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL

     RESPONSE                                                                 8


APPENDIXES

    A - WASHINGTON STATE'S PANDEMIC INFLUENZA PROGRAM FUNDS,
     BY CATEGORY

    B - STATE AGENCY COMMENTS




                                        111
                                             INTRODUCTION


BACKGROUND

Funding for Pandemic Influenza Preparedness and Response Activities

Since 1999, the U.S. Department of Health and Human Services (HHS), Centers for Disease
Control and Prevention (CDC), has provided funding to 62 jurisdictions (States, territories, and
certain large cities) through cooperative agreements to improve preparedness and response
capabilities for bioterrorism and other public health emergencies. Beginning in 2005, Congress
appropriated funds specifically to upgrade capabilities to prepare for and respond to pandemic
influenza (pan flu). Through the existing cooperative agreements, CDC awarded $500 million in
pan flu funding in three phases: I

    •	 In Phase I (August 31, 2005, through August 30, 2006), awardees were to identify unmet
       needs and develop and exercise a pan flu preparedness plan and an antiviral drug
       distribution plan.

    •	 In Phase II (August 31,2006, through August 30,2007), awardees were to complete and
       submit to CDC a work plan and progress reports and develop a pan flu exercise schedule.

    •	 In Phase III (August 31, 2007, through August 9,2008), awardees were to fill gaps
       identified in Phases I and II.

For each phase, CDC issued to awardees supplemental guidance setting forth the deadline for
submitting a budget application to CDC and the required activities. The supplemental guidance
also required awardees to submit interim and final financial status reports (FSR) that summarized
the amount of funding awarded, spent, and unspent for each phase.

For the current cooperative agreement budget year (August 10,2008, through August 9, 2009),
CDC has not provided any funding specifically for pan flu activities even though CDC requires
awardees to continue these activities.

Washington State Department of Health

In Washington State, the Department of Health (the State agency) administers the pan flu award.
The State agency received a total of $1 0, 170,420 in pan flu funding for the three phases.


lCDC has cited to various authorities for the bioterrorism program and the pan flu supplement. Initially, CDC's
grant announcements for the bioterrorism program provided that funding was authorized under sections 30I(a),
3 I7(k)(I)(2), and 319 of the Public Health Service (PHS) Act (42 U.S.C. §§ 24I(a), 247b(k)(I)(2), and 247(d».
Beginning in August 2005, CDC provided that funding was authorized under section 3 I9C of the PHS Act (42
U.S.C. § 247d-3), which was subsequently repealed by the Pandemic and All-Hazards Preparedness Act, P.L. No.
109-417 (Dec. 19,2006). The pan flu grant announcements and guidance do not consistently describe the statutory
authorizations, but the CDC grant award documents list sections 301(a), 317(k)(I)(2), and 319 of the PHS Act for
Phases I and II and sections 319(a) and 317(k) of the PHS Act for Phase Ill. CDC is currently relying on section
319C-1 of the PHS Act (42 U.S.C. § 247d-3a) for all of these grant awards.


                                                        1
CDC approved the State agency's requests to carry forward unspent pan flu funds from Phases I
through III into future budget years as part of CDC's funding for general public health
emergency preparedness and response.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine (1) the extent to which the State agency spent its pan flu funding
and (2) what types of costs it charged to the pan flu award and whether these costs complied with
Federal cost requirements.

Scope

We analyzed the State agency's pan flu funding of$10,170,420 for Phases I through III and pan
flu expenditures of$7,371,252 incurred for the period August 31,2005, through June 30, 2008.

We reviewed the State agency's accounting system to determine how funds were recorded and
segregated and whether funds were spent for allowable activities and costs under Federal
requirements, the cooperative agreement, and the supplemental pan flu guidance. We limited our
review of internal controls to the process that the State agency used to claim pan flu funds.

We performed our fieldwork from July 2008 to May 2009 at the State agency in Tumwater,
Washington, and at selected local health jurisdictions.

Methodology

To accomplish our objective, we:

   •	   reviewed applicable Federal regulations, the cooperative agreement, the supplemental
        pan flu guidance, pan flu budget applications, and the State agency's accounting policies
        and procedures;

   •	   reviewed the State agency's chart of accounts, related account descriptions, and
        accounting records to gain an understanding of how the State agency accounted for its
        pan flu expenditures;

   •	   reconciled the CDC-approved pan flu budget application for each phase to the State
        agency's summary expenditure reports to determine the extent to which the State agency
        spent its pan flu funding;

   •	   analyzed the State agency's summary expenditure reports and reconciled all summarized
        costs to detailed transaction listings;




                                                2

    •	 categorized expenditures as compensation costs, costs related to contracts with local
       health jurisdictions, or other costs (including personal services contracts, travel expenses,
       equipment costs, and supplies) and:

             o	 traced compensation transactions to completed time certifications or approved
                 timesheets,

             o	 reconciled all costs related to contracts with local health jurisdictions to CDC­
                 approved pan flu expenditures and reviewed supporting documentation for
                 selected local health jurisdictions, and

             o	 reconciled other costs to supporting documentation;

    •	 reconciled the State agency's summary expenditure reports to the FSRs submitted to
       CDC as of June 30, 2008; and

    •	 discussed our findings with State agency and local health jurisdiction officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                          RESULTS OF REVIEW

As of June 30, 2008, the State agency had spent $7,371,252 2 of the $10,170,420 in pan flu
funding that it received from CDC. Unspent funds totaled $2,799,168, or 27.5 percent of the
cumulative awarded amount. The State agency attributed the unspent funds to delays in
receiving supplemental guidance and funding from CDC for Phases I and II. The State agency
also attributed the unspent funds to its decision to spend other funding that could not be carried
forward into future years, including CDC's funding for general public health emergency
preparedness and response and the State's funding for pan flu response activities.

The costs that the State agency charged to the pan flu award were in three major categories:
compensation costs; costs related to contracts with local health jurisdictions; and other costs,
including personal services contracts, travel expenses, equipment costs, and supplies. Of the
$7,371,252 that the State agency charged to the award, $6,620,074 complied with Federal cost
requirements. The remaining $751,178 was either unsupported or unallowable, consisting of:

    •	 $588,649 of compensation costs (salaries, fringe benefits, and related indirect costs) that
       were not supported by the required employee certifications;



2This amount represents the totals shown on the State agency's final FSRs for Phases I and II and the State agency's
summary expenditure reports through June 30, 2008, for Phase III.


                                                         3
   ..	 $158,416 of contract costs, including a local health jurisdiction's unsupported allocation
       of direct costs to the pan flu award and another local health jurisdiction's incorrect
       charging of indirect costs to the pan flu award; and

   ..	 $4,113 of unallowable other costs related to the allocation of indirect costs to an

       equipment purchase.


The State agency did not have procedures for its employees who worked on multiple public
health emergency preparedness and response activities to certify the work they performed or for
local health jurisdictions to identify actual costs incurred under the pan flu award. State agency
officials explained that these procedures were unnecessary because the State's emergency
preparedness and response activities, which included pan flu activities, had an overall common
purpose.

UNSPENT FUNDS

Federal regulations (45 CFR § 92.23(a» require a grantee to charge to the award only those costs
that result from obligations of the funding period unless the awarding agency permits the grantee
to carryover unobligated balances into the subsequent funding period.

As of June 30, 2008, the State agency had not spent $2,799,168 of the $10,170,420 awarded for
pan flu activities. (See Appendix A.) Specifically:

   ..	 Phase 1: CDC awarded $1,990,994. The State agency spent $1,454,008 during Phase I
       and carried forward, with CDC's approval, $536,986 of unspent pan flu funds.

   •	 Phase 11: CDC awarded $4,612,085. The State agency spent $3,932,121 during Phase II
       and carried forward, with CDC's approval, $679,964 of unspent pan flu funds.

   •	 Phase 111: CDC awarded $3,567,341. The State agency spent $1,985,123 and had
       $1,582,218 in unspent funds as of June 30, 2008, 40 days before Phase III ended. The
       State agency submitted the final FSR for Phase IlIon May 14,2009, showing unspent
       funds of$255,594. The entire amount was carried forward with CDC's approval.

State agency officials said that delays in receiving supplemental guidance and funding from
CDC for Phases I and II were a major factor contributing to the unspent funds. Because the
periods between the issuance of guidance and the award of funding were compressed, the State
agency may not have had adequate time to determine how best to spend the funds. The table on
the following page shows the timing ofthe awards.




                                                 4

                                         Timing of Pan Flu Awards

                                                                      Budget
                                                  Guidance                                  Funds
                          Budget Year                               Application
                                                   Issued                                  Awarded 3
                                                                     Deadline
         Phase I      08/31/05 - 08/30/06        03/14/2006         04/08/2006            03/07/2006
        Phase II      08/31/06 - 08/30/07        07/10/2006         07/15/20064           09/26/2006
        Phase III     08/31/07 - 08/09/08        09/21/2007         10/24/2007            09/25/2007

Congress appropriated pan flu funding in December 2005. CDC issued Phase I guidance to
awardees in March 2006, which was more than 6 months into the budget year. The State agency
received the funding from CDC for Phase I before receiving the guidance and received the
funding for Phase II within 3 months after receiving the guidance. In addition, the deadline for
the Phase II budget application was only 5 days after the State agency received new and more
comprehensive pan flu guidance from CDC. As a result, the State agency had little time to
determine how best to allocate and spend the funds.

According to State agency officials, the unspent pan flu funds were also attributable to the State
agency's decision to spend other funding that could not be carried forward into future years,
including CDC's funding for general public health emergency preparedness and response and the
State's funding for pan flu response activities.

COSTS CHARGED TO AWARD

Federal cost principles applicable to States, now codified in regulations (2 CFR part 225, "Cost
Principles for State, Local, and Indian Tribal Governments," Appendix A) (Office of
Management and Budget Circular A-87), establish principles for determining the allowability of
costs. These principles state that to be allowable under Federal awards, costs must be necessary
and reasonable for the proper and efficient performance and administration of Federal awards,
must be allocable to Federal awards under the provisions of2 CFR part 225, and must be
adequately documented.

The $7,371,252 that the State agency charged to the pan flu award consisted of compensation
costs; costs related to contracts with local health jurisdictions; and other costs, including personal
services contracts, travel expenses, equipment costs, and supplies. Although $6,620,074 of these
costs complied with Federal cost requirements, the remaining $751,178 did not. The $751,178
consisted of$588,649 of unsupported compensation costs, $158,416 of unsupported or
incorrectly charged contract costs, and $4,113 of unallowable other costs.




3These dates represent the dates of the original awards. Subsequent revisions were made to release additional funds
after review and approval of a detailed budget.

4Pursuant to the Public Health Preparedness and Response Cooperative Agreement, the initial application date for
funding was July 15,2006. However, a request for redirection of the pan flu Phase II funds was due by
August 31, 2006.


                                                         5

Compensation Costs

Pursuant to 2 CFR part 225, Appendix B, section 8.h.(3):

       Where employees are expected to work solely on a single Federal award or cost
       objective, charges for their salaries and wages will be supported by periodic
       certifications that the employees worked solely on that program for the period
       covered by the certification. These certifications will be prepared at least
       semi-annually and will be signed by the employee or supervisory official having
       first hand knowledge of the work performed by the employee.

In addition, section 8.h.(4) states: "Where employees work on multiple activities or cost
objectives, a distribution of their salaries or wages will be supported by personnel activity reports
or equivalent documentation, which will be required where employees work on more than one
Federal award."

The State agency charged $1,150,825 to the pan flu award for compensation costs (salaries,
fringe benefits, and related indirect costs). Of this amount, $562,176 was correctly charged to
the pan flu award for the costs of employees who worked solely on the pan flu grant or who
submitted timesheets certifying the actual time that they worked on pan flu activities.

The remaining $588,649 in compensation costs was not supported by employee certifications.
The employees for whom these costs were charged had certified that they worked 100 percent of
their time on public health emergency preparedness and response activities, including pan flu
response activities, other CDC-funded emergency preparedness and response activities, and an
Office of the Assistant Secretary for Preparedness and Response (ASPR) award. Contrary to
Federal regulations, these certifications did not identify the time spent on each cost objective;
i.e., each emergency preparedness and response area and the ASPR award. According to State
agency officials, based on guidance from the Washington State Auditor's Office, the State
agency considered all emergency preparedness and response funding sources as a single cost
objective for the purpose of meeting the certification requirements of2 CFR part 225. However,
during our audit, the State Auditor's Office revised its position and advised State agency officials
that there were multiple and separate cost objectives under CDC's public health emergency
preparedness and response program.

Contract Costs

Pursuant to 2 CFR part 225, Appendix A, section E.l.: "Direct costs are those that can be
identified specifically with a particular final cost objective." Section F.l. states: "Indirect costs
are those incurred for a common or joint purpose benefiting more than one cost objective, and
not readily assignable to the cost objectives specifically benefitted, without effort
disproportionate to the results achieved." Section C.3.a. states: "A cost is allocable to a
particular cost objective ifthe goods or services involved are chargeable or assignable to such
cost objective in accordance with relative benefits received."

The State agency charged $4,683,262 to the pan flu award for costs related to contracts with
local health jurisdictions and associated indirect costs. These contracts were awarded for such


                                                  6

pan flu activities as developing regional health care coalitions, enhancing emergency
preparedness and response plans, developing disease surveillance and communications systems,
enhancing risk communication capacity, and providing related education and training. Of this
amount, $4,524,846 was properly documented and allowable under the award, but $158,416 was
not, as explained below.

   •	 Costs totaling $117,994 were unsupported. To arrive at this amount, the local health
      jurisdiction totaled all direct costs related to public health emergency preparedness and
      response activities and used a percentage to calculate how much to allocate to the pan flu
      award. The percentage was based on a ratio of budgeted pan flu funding to total
      budgeted funding for the public health emergency preparedness and response program.
      The local health jurisdiction could not provide documentation to support that the costs
      allocated to the pan flu award were identified specifically with that cost objective.

   •	 Costs totaling $38,389 represented a portion of the salaries of two executives and
      miscellaneous expenditures for printing, supplies, and travel that another local health
      jurisdiction charged to the award as direct costs. Because these costs benefited more than
      one cost objective, they should have been included in the indirect cost rate.

   •	 Costs totaling $2,033 represented the State agency's indirect costs related to the

      unsupported or incorrectly charged contract costs described above.


State agency officials explained that they had established a single cost objective to capture all
emergency preparedness and response funding sources and saw no conflict with 2 CFR part 225.

Other Costs

The State agency's negotiated indirect cost agreement with HHS specified that equipment costs
should be excluded from the base when calculating and allocating indirect costs.

The State agency charged $1,537,165 to the pan flu award for other costs, such as personal
service contracts, travel expenses, equipment costs, and supplies. Of this amount, $1,533,052
was properly documented and allowable under the award. However, the remaining $4,113
represented unallowable indirect costs claimed on an equipment purchase.

RECOMMENDATIONS

We recommend that the State agency:

   •	 either refund $747,065 of unsupported compensation and contract costs or provide
      appropriate documentation to CDC for these costs,

   •	 refund $4,113 in unallowable other costs, and

   •	 develop and implement procedures requiring employees who work on multiple public
      health emergency preparedness and response activities to certify the actual work they


                                                7
       perform and for local health jurisdictions to identifY actual costs incurred under the pan
       flu award.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In comments on our draft report, the State agency commented that it partially concurred with the
first recommendation and will work with CDC to resolve the questioned contract and
compensation costs:

   •	 For the $588,649 of compensation costs, the State agency emphasized that it had
      followed guidance from the Washington State Auditor's Office (SAO) indicating that pan
      flu response activities, the public health and emergency preparedness program, and the
      ASPR award were properly classified as a single cost objective. The State agency
      commented that it believed that the reported costs were valid when considered in
      aggregate.

   •	 For the $158,416 of contract costs charged by local health jurisdictions, the State agency
      commented that $117,994 of these costs were treated as a single cost objective because
      State and local program managers had followed guidance from the SAO. For the
      remaining $40,422, the State agency commented that it concurred with the finding but
      will work with the local health jurisdiction to provide documentation to CDC to resolve
      the questioned costs.

The State agency concurred with the second and third recommendations. The State agency's
comments are included in their entirety as Appendix B.

Nothing in the State agency's comments caused us to revise our findings or recommendations.




                                                 8

APPENDIXES

                                                                                                   APPENDIX A



                       WASHINGTON STATE'S PANDEMIC INFLUENZA
                                FUNDS, BY CATEGORY
                              August 31, 2005-June 30, 2008

                                             Total                                               Unspent
               Category                     Awarded                Total Spent                   Funds

   Compensation Costs:
     Personnel                                 $906,921                   $745,363                   $161,558
     Fringe Benefits                            240,182                    204,603                     35,579
   Costs Related to
   Contracts With Local                       6,703,000                   4,623,161                 2,079,839
   Health Jurisdictions

   Other Costs:
     Personal Services Contracts               1,628,894                  1,152,052                   476,842
     Travel
     Equipment                                    25,000 °                   21,953
                                                                             19,157
                                                                                                      (21,953)
                                                                                                         5,843
     Supplies                                    217,728                    266,707                   (48,979)
   Total Direct Costs                        $9,721,725                 $7,032,996                 $2,688,729
     Indirect Costs                              448,695                    338,256 1                  110,439
       Total Award                         $10,170,420                  $7,371,252                 $2,799,168




IThe $338,256 of indirect costs are related to the cost categories for compensation ($200,859), contracts ($60,101),
and other costs ($77,296).
                                                                                                       APPENDIXB
                                                                                                         Page 1 of2




                                           STATE OF WASHINGTON

                          DEPARTMENT OF HEALTH

        PUBLIC HEALTH EMERGENCY PREPAREDNESS & RESPONSE PROGRAM

                       Post Office Box 47890. Olympia, Washington 98504-7890

                                Tel: (360) 236-4032 • FAX: (360) 586-7424

                                    TOO Relay Service: 1-800-833-6388




July 14, 2009

Lori Ahlstrand
Office of Audit Services
Office ofInspector General
U.S. Department of Health and Human Services
90 - 7th St. Suite 3 - 650
San Francisco, CA 94103

We appreciate the opportunity to respond to the Department of Health and Human Services, Office of
Inspector General (OIG) draft report entitled "Review of Washington State's Pandemic Influenza
Expenditures for the Period August 31, 2005, Through June 30, 2008".

Concerning the questioned cost of $588,649 for compensation costs that were' charged by the Washington
State Department of Health to the grouped pan flu, bioterrorism focus areas, and HHS Office of Assistant
Secretary for Preparedness and Response (ASPR) award; we wish to emphasize that our agency was
following guidance received from our Washington State Auditors Office, as acknowledged in your report.

The Washington State Auditor's Office had reviewed time and effort reporting for the Public Health and
Emergency Preparedness Program (PHEPR) in each of the preceding three years before the OIG Pan Flu
program audit, as a part of the federal Single Wide State Audit (SWSA). Accordingly, were advised that
the program components of Pan Flu, PHEPR and ASPER were properly classified as a single cost
objective, allowing our staff to report 100% of their time via semi - annual certifications per OMB
Circular A-87 requirements.

Work on either PHEPR or Pan Flu projects can easily result in a benefit to both programs. It is not always
easy to tease out the value-added portion of completed work and assign the cost to one o.r the other of
these projects.

In the initial year of the pan flu program, DOH chose not to charge staff time to the Pan Flu program
despite work on pan flu-related activities to get the program up and running at the Department of Health.
Staff work during the first year was used to establish and assign an allocation between PHEPR and Pan
Flu in the two subsequent periods. Based on these continuing requirements of staff time in subsequent
years, we did not see the need to change these allocations during the period of the grant. We believe that
the reported costs are valid when considered in aggregate.
                                                                                                             1
                                                                                                       APPENDIXB
                                                                                                         Page 2 of2



                                                                                                WADOH
                                                                       OIG Pan Flu Audit - Response 2009
                                                                                                    Pg.2


With respect to questioned costs of$158,416 charged by local health jurisdictions, $117,994 was charged
in direct salary in substantially the same manner as did the State Department of Health, in that Pan Flu
and PHEPR costs were treated as a single cost objective. Again, our state and local program managers
were simply following our State Auditor's Office guidance.

We partially concur with the recommendation provided by DHHS OIG audit team, and will work with
CDC to resolve $706,643 of the questioned cost.

With respect to the remaining $40,422 resulting from improperly classified distributed direct costs, we
concur with the auditor's finding, but will work with our local agency to provide documentation to CDC
to resolve this questioned cost as well.

We also concur with the $4,113 in unallowable indirect costs claimed on an equipment purchase.

Lastly, we concur with the recommendation, provided by OIG, that our agency develop and implement
procedures requiring employees who work on multiple public health emergency preparedness and
response activities to segregate compensation costs, now that the issue of separate cost objective has been
sufficiently clarified.

We thank the Depattment of Health and Human Services, Office of Inspector General audit team for the
professional work by their staff. Please contact Charles Satterlund, DOH Internal Auditor at
(360) 236-4536 if you have any questions.




Jo L. Erickson
D' ector of Emergency Preparedness
  d Response
